No. 20-433
tbe Oupreme Court of tbe

&tato

MARK ANTHONY JENKINS,
Petitioner,
v.
TIMOTHY O'ROURKE, Jefferson Parish Assistant DistrictAttorney,
Jefferson Parish Juvenile Court; ROBERT M. MURPHY, Former Judge of
the Louisiana Fifth Circuit Court of Appeal; KRISTYL TREADAWAY;
BARRON BURMASTER. Judge, Respondents
CERTIFICATE OF SERVICE
I certify that opposing counsel for all parties have waived service of a
paper copy of this pleading. Electronic service has been made on all parties
through their counsel of record this 10th day of November, 2020:
Attorney Kristyl R.Treadawy through Franklin Beahm, Esq. frank
@beahm.com
Judge Barron Burmaster through James Evans, Esq. evansj@ag.louisiana.
gov
ADA Timothy O'Rourke through ADA Darren A. Allemand,
dallemand@jpda.us
Former JudgeRobert M. Murphy through E. John Litchfield, Esq.
jlitchfield@ berriganlaw.net
11/10/20
Mark Anthony Jenkins, pro se
3301 Hwy. 1 South
P.O. Box 1402
Donaldsonville, La. 70346

RECEIVED
NOV 18

2020
OFFICE OF nig CLERK
SUPREME COURT, U.S.

No. 20-433
In the ampretne Court of Hie &lite) tateg
MARK ANTHONY JENKINS,

Petitioner,
v.
DistrictAttorney,
TIMOTHY O'ROURKE, Jefferson Parish Assistant
, Former Judge of
Jefferson Parish Juvenile Court; ROBERT M. MURPHY
L TREADAWAY;
the Louisiana Fifth Circuit Court of Appeal; KRISTY
BARRON BURMASTER. Judge, Respondents
IT,

CERTIFICATE OF COMPLIANCE WITH PAGE LIM

TYPE FACE AND TYPE-STYLE REQUIREMENTS
Court Rule
This document complies with the page limit of Supreme
ding parts of the
33.2(b) for 8 and 1/2 inch paper format, because exclu
consists of 8 and %
document exempted by Rule 33.1(d), the Reply Brief
pages.
of Rule 33.1(b) in
This document complies with the typeface requirements
in 12 point size
a proportionally spaced typeface using Word Perfect
Century.
11/10/20
Mark Anthony nkins, pro se
3301 Hwy. 1 South
P.O. Box 1402
Donaldsonville, La. 70346

